                                                NATIONAL SCIENCE FOUNDATION
                                                 OFFICE OF INSPECTOR GENERAL
                                                   OFFICE OF INVESTIGATIONS

                                           CLOSEOUT MEMORANDUM

 Case Number: 112100075                                                                  Page 1 of 1



                  The Federal Financial Reports for an award 1 showed no funds drawn down until the end
         ofthe first year of a two~year award and 24% ofthe award being drawn down during the second
         quarter after the award expired. We requested source documentation from the awardee
         institution,2 and the institution's detailed response substantiated that the grant funds were
         properly spent and that the terms and conditions of the program were met. Accordingly, this
         case is closed with no further action taken.




NSF OIG Form 2 (11102)
